No.

IN THE

Supreme Court of tije SHmtetr States:
DENNIS BLACK, CHARLES CUNNINGHAM, KENNETH HOLLIS,
AND DELPHI SALARIED RETIREE ASSOCIATION,
Petitioners,
V.

PENSION BENEFIT GUARANTY CORPORATION,
Respondent

CERTIFICATE OF COMPLIANCE WITH RULE 33.1
As required by Supreme Court Rule 33.1(h), I certify that the PETITION
FOR A WRIT OF CERTIORARI contains 8,908 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 22, 2021.

Anthony F. Slielley^
Miller & Chevalier Chartered
900 Sixteenth St. NW
Black Lives Matter Plaza
Washington, DC 20006
Telephone: 202-626-5800
Facsimile: 202-626-5801
E-mail: ashelley@milchev.com
Counsel for Petitioners

